 OFFICE OF INSPECTOR GENERAL

                  Audit Report
Assessment of the Federal Managers' Financial Integrity Act
       Process at the Railroad Retirement Board




                    Report No. 07- 05
                     April 30,2007




    RAILROAD RETIREMENT BOARD
Assessment of the Federal Managers’ Financial Integrity Act Process at the
                       Railroad Retirement Board
                                           INTRODUCTION

This report represents the results of the Office of Inspector General’s (OIG)
audit of the Federal Managers’ Financial Integrity Act process at the
Railroad Retirement Board (RRB).

Background

The Federal Managers’ Financial Integrity Act (FMFIA) of 1982 (Public Law
97-255 codified in 31 U.S.C. 3512) requires Executive branch agencies to
establish and maintain internal control to ensure that Federal programs
operate efficiently, effectively, and in compliance with relevant laws.
Office of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, was created to implement the FMFIA.
Management is responsible for developing and maintaining effective
internal control. Effective internal control provides assurance that
significant weaknesses in the design or operation of internal control, that
could adversely affect the agency’s ability to meet its objectives, would
be prevented or detected in a timely manner.

Agencies are also required to provide certain assurances regarding the
effectiveness of the internal controls and financial management systems
that support the preparation of agency financial statements. Assurance
statements related to the FMFIA and compliance with the Federal
Financial Management Improvement Act (FFMIA) are provided in the
annual Performance and Accountability Report (P&AR). 1 Assurances
regarding compliance with the FFMIA are required for agencies subject to
the Chief Financial Officers Act.

The RRB created the Management Control Review Committee (MCRC) to
establish and oversee a process to identify and eliminate management
control weaknesses and financial non-conformances. The MCRC is
responsible for ensuring the adequacy of corrective action plans and
preparing the information required by FMFIA for inclusion in the agency’s
annual P&AR. The RRB uses the management control review process as a
means of reviewing critical agency processes in order to provide
reasonable assurance of the effectiveness and efficiency of agency
programs and operations.

The MCRC prepared a Management Control Guide in December 2006 to
provide guidance for compliance with FMFIA. Agency managers prepare
management control documentation for the agency’s assessable units

1
    These assurances are required by OMB Circular A-136, Financial Reporting Requirements.


                                                    1
and submit it to the MCRC. Assessable units, defined by agency
management, encompass all agency activities that can impact the RRB’s
mission. Periodic management control reviews are conducted for the
assessable units. Agency managers and office heads prepare
certifications annually which assess their unit’s substantial compliance with
the requirements of the FMFIA.

This audit addresses the RRB’s strategic objective to ensure effectiveness
and efficiency of operations.

Objective, Scope and Methodology

The audit objectives were to determine whether:

   1. management assurance statements comply with the requirements
      of OMB Circular A-123 and are fully supported by management
      control documentation, and
   2. management control guidance and documentation satisfy the
      requirements of the FMFIA and OMB Circular A-123.

To accomplish the audit objectives, we:

♦ identified the criteria provided in the FMFIA and OMB Circular A-123;
♦ compared the management control guidance provided on the
  MCRC’s website on the RRB Intranet to the criteria provided in the
  FMFIA and OMB Circular A-123;
♦ compared the most current management control review
  documentation as of December 31, 2006 for each assessable unit to
  the criteria provided in the FMFIA and OMB Circular A-123;
♦ compared the management assurance statements included in the
  Fiscal Year 2006 P&AR to the guidance provided in FMFIA, OMB
  Circular A-123 and the FFMIA;
♦ reviewed the annual management certifications to determine if they
  sufficiently support the management assurance statements made in
  the Fiscal Year 2006 P&AR; and
♦ interviewed members of the MCRC.

Our work was performed in accordance with generally accepted
government auditing standards as applicable to the objectives. Fieldwork
was conducted during January through March 2007 at RRB headquarters
in Chicago, Illinois.




                                      2
                                 RESULTS OF AUDIT

We found that the assurance statement regarding compliance with the
FFMIA provided in the RRB’s Fiscal Year 2006 P&AR was not applicable for
the RRB and the assurances provided regarding the reliability of
performance information are not supported by MCRC documentation.

We determined that other assurance statements were supported by
MCRC documentation and the other guidance provided by the MCRC
was in accordance with FMFIA and OMB Circular A-123 guidance.

We also found that the MCRC needs to:

♦ improve the effectiveness of the management control review process
  to identify control objectives and develop control techniques,
♦ increase the frequency of reviews, and
♦ prioritize the schedule of future management control reviews.

The details of our findings and recommendations follow.

FFMIA Assurance Statement and Guidance Not Applicable for the RRB

The management assurance statement made in the RRB’s Fiscal Year
2006 P&AR regarding compliance with the FFMIA was not applicable for
the RRB. It stated, “The financial management systems of this agency
provide the agency with reliable, timely, complete, and consistent
performance and other financial information to make decisions and
efficiently operate and evaluate programs and substantially satisfy the
requirements of the Federal Financial Management Improvement Act
§803(a), the Government Performance and Results Act, and OMB Circular
A-11.”

The FFMIA assurance statement is only applicable for agencies subject to
the Chief Financial Officers (CFO) Act. The RRB is not a CFO Act
agency. 2

The RRB reported compliance with the FFMIA because the agency was
emulating CFO Act agencies. Internal agency management control
documentation asserted compliance with the CFO Act because the
instructions are provided in the Management Control Guide.

2
 CFO Act agencies are identified in Appendix A of OMB Bulletin 06-03, Audit
Requirements for Federal Financial Statements.


                                           3
This assurance statement provides readers of the P&AR with information
which implies that the RRB is subject to the CFO Act.

Recommendations

The Management Control Review Committee should:

    1. remove all references to compliance with the FFMIA from the
       Management Control Guide, and

    2. exclude assurances regarding compliance with FFMIA in future
       Performance and Accountability Reports.

Management’s Response

The Management Control Review Committee concurs with the
recommendations. The full text of management’s response is included in
the Appendix to this report.

Lack of Support Regarding the Reliability of Performance Information

The MCRC does not have sufficient support for the management
assurance statement provided in Fiscal Year 2006 P&AR regarding the
reliability of performance information. The RRB is required to make
assurance statements to satisfy the requirements of FMFIA § 2. The portion
of the RRB’s assurance statement made in the Fiscal Year 2006 P&AR
regarding performance information states that the system of internal
control for the agency is functioning and provides reasonable assurance
as to the reliability of performance information.

The MCRC uses management control certifications to support the
management assurance statements made in the annual P&AR. However,
MCRC guidance does not require assurance statements regarding the
reliability of performance information. As a result, assurances have been
made for which the MCRC does not have documented evidence.

MCRC documentation and guidance also lacked the identification and
testing of controls over performance measures. The OIG previously
recommended that the MCRC include performance reporting in the
management control review program. 3 The MCRC’s response to the

3
 OIG audit report Fiscal Year 2006 Financial Statement Audit Letter to Management,
Report No. 07-01 dated February 9, 2007 (recommendation number 8)


                                          4
audit recommendation states that the Management Control Guide will
be revised to require testing of the controls over performance indicator
data used for the Annual Performance Plan in the P&AR. As a result of this
pending issue, no additional recommendation is made.

Recommendation

   3. The Management Control Review Committee should revise the
      Management Control Guide to require that the control
      certifications include assurances regarding the reliability of
      performance information.

Management’s Response

The Management Control Review Committee concurs with the
recommendation. The full text of management’s response is included in
the Appendix to this report.

Management Control Review Process has not been Effective in Identifying
Control Objectives or Developing Control Techniques

The RRB’s management control review process has not been effective in
identifying control objectives or developing control techniques. This
process has not been effective because it did not identify the weaknesses
in the control assessment for various assessable units.

A comprehensive system of internal control includes a risk assessment
process, implementation of appropriate control activities, and monitoring
to assess the quality of performance over time. The RRB established the
MCRC to oversee the agency’s internal control assessment process and
provide guidance to managers in performing the individual evaluations
that support the assessment of the adequacy of internal control agency
wide.

The MCRC reviewed and accepted documentation regarding control
effectiveness even though there were numerous instances of:

♦ control techniques describing procedures and statements that are
  insufficiently detailed to determine how they function as internal
  controls;

♦ control objectives that do not completely address the agency’s
  mission or satisfy FMFIA objectives;



                                    5
♦ control techniques that do not fully meet the assessable unit’s control
  objectives;

♦ control techniques that are not operating effectively; and

♦ control techniques being considered “effective” even though they
  have not been tested.

In addition, financial assertions defined by the Government
Accountability Office (GAO) and the President’s Council on Integrity and
Efficiency (PCIE) are not used as objectives for the RRB’s 23 financial
assessable units. The FMFIA requires that agencies provide reasonable
assurance for the preparation of accounts and reliable financial and
statistical reports. GAO and PCIE guidance provided in the Financial
Audit Manual explains that the financial statement assertions are
management representations that are embodied in the financial
statements. The financial assertions currently defined are existence or
occurrence, completeness, rights and obligations, valuation or allocation,
and presentation and disclosure.

The three objectives of internal control (effectiveness and efficiency of
operations, compliance with laws and regulations, and reliability of
financial reporting) are not always stated as separate objectives.

Our review of the management control documentation shows that, while
some of the control techniques address the internal control objectives as
well as some of the financial assertions, they should be stated as separate
objectives to obtain assessable unit wide coverage.

Guidance issued by the MCRC does not require the use of these
objectives. Many of the control objectives and techniques formally
reviewed and approved by the MCRC are very old because recent
management control reviews have not been conducted for them. Since
many of the documents were formally reviewed and approved by the
MCRC, more emphasis has been placed on controls to prevent fraud and
OMB has revised OMB Circular A-123.

As a result of these conditions, agency management does not have an
adequate basis for reliance on the management control review when
providing assurance on the effectiveness of internal control agency wide.




                                     6
Recommendations

The Management Control Review Committee should:

   4. develop a schedule for working with the assessable units to update
      their control objectives and techniques so that they meet agency
      and GAO standards for internal control;

   5. revise the Management Control Guide to require that
      management control documentation include the three objectives
      of internal control: effectiveness and efficiency of operations,
      compliance with laws and regulations, and reliability of financial
      reporting; and

   6. revise the Management Control Guide to require that
      management control documentation include the financial
      assertions as defined in the GAO and PCIE Financial Audit Manual.

Management’s Response

The Management Control Review Committee concurs with the
recommendations. The full text of management’s response is included in
the Appendix to this report.

Infrequent Management Control Reviews

Based on the current management control review schedule, the OIG
determined that between 9 to 14 years will have elapsed for 13 assessable
units from the date of their last management control review to the next
scheduled review. In addition, seven assessable units have never been
reviewed by the MCRC.

Continuous monitoring and testing should help to identify poorly designed
or ineffective controls and should be reported upon periodically. Also,
periodic assessments should be integrated as part of management’s
continuous monitoring of internal control.

A cause for infrequent reviews is that the MCRC allows responsible officials
to postpone their management control reviews for various reasons, but
the MCRC does not have documented guidelines for time extensions
allowed. In addition, the MCRC recently eliminated a category of
assessable units that were not scheduled for review and determined that
every assessable unit should be reviewed once every five years and that
some may warrant a more frequent review.


                                     7
The effect of infrequent management control reviews increases the risk
that control objectives, and techniques identified years ago insufficiently
address the current work environment and new guidance provided by
governing agencies. In addition, infrequent management control reviews
do not provide for the tests of controls in a timely manner. As a result,
controls that do not work may go undetected and may not prevent or
detect errors and potential fraudulent situations.

Recommendation

    7. The Management Control Review Committee should define and
       document an allowable timeframe for requested extensions or
       postponements of management control reviews.

Management’s Response

The Management Control Review Committee concurs with the
recommendation. The full text of management’s response is included in
the Appendix to this report.

No Priority Given to the Scheduling of Management Control Reviews

The MCRC created a schedule to review every assessable unit once
within a five-year period. However, management control documentation
shows the need for more frequent reviews. For example, annual
certifications prepared in calendar year 2006 for three assessable units
indicate they cannot state that all control objectives are being
accomplished. Only one was scheduled for a review during calendar
year 2007, while the other two were scheduled for review in 2008 and
2011. 4 In addition, although the MCRC has recognized the possibility of
performing management control reviews more frequently for some
assessable units, those assessable units have not been identified.

Agency managers should continuously monitor and improve the
effectiveness of internal control associated with their programs. This
continuous monitoring, and other periodic assessments, should provide
the basis for the agency head’s annual assessment of and report on
internal control, as required by the FMFIA.



4
 The next management control review for these three assessable units are: Application Development in
2007; Records Management in 2008; and Human Resource Management in 2011.


                                                   8
The MCRC prepares a five-year management control review plan every
year. Currently, the only criteria that the MCRC uses to schedule the next
management control review is a period of five years after the last review.
The MCRC’s Management Control Guide indicates that some assessable
units might be considered for more frequent review, such as those that
are highly vulnerable or have high impact, as determined by the MCRC
and the organization head.

According to the GAO publication Standards for Internal Control in the
Federal Government, the scope and frequency of separate evaluations
should depend primarily on the assessment of risks and the effectiveness
of ongoing monitoring procedures. Separate evaluations may take the
form of self assessments as well as review of control design and direct
testing of internal control.

The MCRC follows its predefined management control review schedule.
In addition, the MCRC has not formally defined criteria for use in prioritizing
the order in which the assessable units are to be reviewed. Comments
obtained from the MCRC explained that self-prepared risk assessments
could be used in the future to identify the assessable units that warrant
more or less frequent reviews. RRB risk assessments are self-assessed based
on guidance provided by the MCRC in the Management Control Guide.

The absence of more frequent reviews for assessable units that are critical
to the agency, based on risk or mission importance, could result in
delaying the detection of control objectives that are not being
accomplished. This could impact the achievement of the unit’s mission.

Recommendations

The Management Control Review Committee should:

   8. revise the Management Control Guide to formally document
      criteria for identifying the assessable units that should be reviewed
      more frequently than once every five years;

   9. identify the assessable units that should be reviewed more
      frequently than once every five years;

   10. determine and document the timeframe in which the frequency of
      review will be re-evaluated; and




                                      9
  11. revise the Management Control Guide to reflect that the
     management control review schedule will be modified as
     necessary when potential deficiencies are reported.

Management’s Response

The Management Control Review Committee concurs with the
recommendations. The full text of management’s response is included in
the Appendix to this report.




                                  10
                UNITED   S T A T E SG O V E R N M E N T
                MEMORANDUM



          : Henrietta B. Shaw
            Assistant Inspector General for Audit


FROM      : Management Control Review Committee



SUBJECT:     Draft Audit Report: Assessment of the Federal Managers' Integrity Act
                                 Process at the Railroad Retirement Board



Thank you for giving us the opportunity to comment on your draftaudit report dated
April 11,2007. We have reviewed the report and note that your office "found that the
assurance statement regarding compliance with the FFMlA provided in the RRB's Fiscal
Year 2006 P&AR was not applicable for the RRB and the assurances provided
regarding the reliability of performance information are not supported by MCRC
documentation.' We plan to exclude from the Performance and Accountability Report
(P&AR) th'e assurance statement regarding compliance with the FFMlA in the future and
revise the Management Control Guide (MCG) regarding performance information in light
of the new Administrative Circular RRB-2, Procedures for Documentation, Validation,
and Certification of Performance Information. We also were pleased to note that your
office determined "tat other assurance statements were supported by MCRC
documentation and the other guidance provided by the MCRC was in accordance with
FMFIA and OMB Circular A-123 guidance."

There is one item in the report on which we would like to further comment. In the
Background section of the report, you state The MCRC prepared a Management
Control Guide in December 2006...."

A number of years ago the Management Control Review Committee (MCRC) eliminated
the paper guide and put the guidance on the MCRC web site. We received reports from
the Responsible Officials that it was difficult to use the guidance without a
comprehensive paper version. In 2006 the MCRC redeveloped a comprehensive guide
and issued paper copies. The new revised guide is being used by the Responsible
Officials for the first time this year.

The MCRC is already working on revisions of the guide based on our review of this            I
year's submissions. These changes, along with the changes you are recommending,
will be incorporateg into the guide and a new guide reissued by December 31, 2007.
The reviged guide will be used in 2008.                                              i   .       I   I


                                                   11
our comments on recommendationsfor the MCRC are as follows:

Recommendations:

    1   Remove all references to compliance with the FFMIA from the
        Management Control Guide.

        We wilt remove all references to compliance with the FFMIA from the MCG.

        Target date: January 31,2008.


    2. Exclude assurances regardlng compiiance wlth FFMIA in future
       Performance and Accountabiii@Reports.

        We will exclude assurances regarding compliance with FFMlA in future P&ARe /-   1                1
        starting with fiscal year 2007.                                                 '
                                                                                        I            '..I\
                                                                                                         1

        Target date: January 31,2008.


    3. The MCRC should revise the Management Control Guide to require that                  II       ' I     1
       fhe condral certincations include assurances regarding the retiabiiity of            I        !
       performance information.

        We will revise the MCG to require that the control certifications include
        assurances regarding the reliabiri of performance information in light of the
        new Administrative Circular RRB-2, Procedures for Documentation, Validation,
        and Certification of Performance Information.

        Target date: January 31,2008.


   4. Develop a schedule for working with assessable units to update their
      control objectives and techniques so they meet agency and GAO
      standards for internal control.

        We will develop a schedule for working with assessable units to update their
        control objectives and techniques so they meet agency and GAO standards for
        internal control..                                                                       I               I
                                                                                                 I               I

        Target date: January 31,2008.
5. Revise the Management Control Guide to require that management
   controi documentation include the three objectives of infernal controi:
   effectiveness and eMciency of operations, compliance with laws and
   regulations8and reliability of financial reporting.

   We will revise the MCG to require that management control documentation
   include the three objectives of internal control.

   Target date: January 31,2008.


6. Revise the Management Contra1 Guide to reqhre that management                       1 , : .
   control documentation inctude the ffnancial assertions as defined in the
   GAO and PCIE Financial Audit Manual.                                            J
                                                                                       ,
                                                                                       I


   We will revise the MCG to require that management control documentation
   include the financial assertions as defined in the GAO and PCIE Financial
   Audit Manual.

   Target date: January 31,2008.


7. The Management C o n M Review Cammfffeeshould defUle and document
   an allowable tlmefime for requested extensions or postponements of
   management control reviews.                                                         I


   We will define and document a process for requesting extensions or
   postponements of management control reviews in the MCG, to include an
   allowable timeframe.

   Target date: January 31,2008.


8. Revise the Management Control Guide to formally document criteria for
   Identlfjdng the assessable unlts that should be reviewed flrore frequently
   than once every five years.
                                                                                           r
   We will revise the MCG to formally document criteria for identifying the                ,   I

   assessable units that should be reviewed more frequently than once every five
   years.

   Target date: January 31,2008.
                                                                                                                .            1
                                                                                                                             ' 1
                                                                                                                        .j                   I
                                                                                                                             d           -I

                                                                                                                    r        I ;
                                                                                                                                             I.;
      9. ldentitjt the assessable units that should be reviewed more frequently
                                                                                                                             I               ]
         than once every flve years,                                                                                                         1 .                  '
                                                                                                                                             I



            We will identify the assessable units that should be reviewed more frequently                                        1 1
            than once every five years.                                                                                                      I               _.
                                                                                                                                             7'                   I



            Target date: January 31,2008.                                                                                                    ,.                           .
                                                                                                                                             I                    1.          .
                                                                                                                                 1               I                        ' 5

                                                                                                                                             1                    8
                                                                                                                                         I                   .I
      10. Determlne and document the timeframe in which the frequency of revhw                                                               i.                       ,
          will be reevaluated.                                                                                                                   I .
                                                                                                                                 1               1



            We will determine and document the timeframe in which the frequency of
            review will be re-evaluated.

            Target date: January 31,2008.


      1     Revise the Management Control Guide to reflect that the management
            control review scheduk will be modiaed-as necessary when potentla1
            deficiencies am reported.

           We will revise the MCG to reflect that the management control review schedule                                                  'I         I

           will be modified as necessary when potential deficiencies are reported.                                                   I. 1 1
                                                                                                                                     ( I ,
           Target date: January 31,2008.




John M. Walter
Chair                                Alternate Chair                       Director of Retirement Benefits
Chief of Accounting, Treasury, and   Director of Assessment and Training
Financial Systems

                                                                                                                                     *                   8




[&*
  onald J. Hodapp
Chief of Information ~esources
                                     *?&
                                     Chief of Support
                                                        Services   -
                                                                             )qua
                                                                                6ts-
                                                                           Rachel L. Simmons
                                                                           Executive Assistant to the General
                                                                                                                                     I..;
                                                                                                                                     j
                                                                                                                                                         1 3 ,
Management                                                                 Counsel
                                                                                                                                     I                   I

cc:       Executive Committee
          Hattie Fitzgerald, Financial Compliance Officer
          BiiI Flynn, Executive Assistant
                                                        14
